Holland & Knight
50 North Laura Street, Suite 3900 I Jacksonville, FL 32202 I T 904.353.2000 I F 904.358.1872
Holland & Knight LLP I www.hklaw.com

Wesley Ridout
+1 904-798-7327
Wesley.Ridout@hklaw.com

August 27, 2021
VIA FEDERAL EXPRESS
TRACKING NO.: 2830 4148 8560
Clerk of Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Jesus Vasquez, J. and Penney Leigh Vasquez v. Wilmington Savings Fund Society,
FSB, as Trustee of Stanwich Mortgage Trust F;
Supreme Court of the United States Case No. is 21-134

Dear Clerk of Court:
I am writing on behalf of Wilmington Savings Fund Society, FSB, as Trustee of Stanwich
Mortgage Trust F ("Wilmington"), in relation to a Petition for a Writ of Certiorari (the "Petition")
that was filed on or about July 29, 2021 in the Supreme Court of the United States Case No. 21134. Wilmington wishes to file an opposition to the Petition. However, we need additional time to
prepare the opposition for filing. The current deadline is Monday, August 30, 2021. We are seeking
a thirty day extension, which a proposed new filing date of September 29, 2021.
The Holland & Knight offices remain closed due to the pandemic, save for mandatory inoffice appearances. Accordingly, the efficiency in briefing substantial documents is noticeably
decreased due to the lack of resources available from within our offices. Counsel for Wilmington
is unable to meet the filing deadline of August 30, 2021.
Of note, I am not currently admitted to practice before the Supreme Court of the United
States. However, I will either seek admittance or seek assistance with preparation and filing of the
proposed opposition to the Petition from an attorney from within the Holland & Knight offices to
file the proposed opposition.
The proposed extension, through and including September 13, 2021, will not prejudice any
party and is made in compliance with Rule 30.4.

RECEIVED
AUG 3 1 2021
Atlanta I Austin I Boston I Charlotte I Chicago I Dallas I Denver I Fort Lauderdale I Houston I Jacksonville
Los Angeles I Miami I New York I Orange County I Orlando I Philadelphia I Portland I San Francisco
Stamford I Tallahassee I Tampa I Tysons I Washington, D.C. I West Palm Beach

OFncgigg THE CLERK
SUPREME COURT, U.S.

Thank you for your attention to this matter.

Respectfully,
HOLLAND & KNIGHT LLP

cc: Counsel for Petitioners,
via Federal Express, Tracking No. 2830 4151 7950

#59957190_v1

